Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Quality Oversight of
    Ambulatory Surgical Centers

The Role of Certification and Accreditation
          Supplemental Report 1




                      JANET REHNQUIST
                      Inspector General

                        FEBRUARY 2002
                        OEI-01-00-00451
                            OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General and Joyce M. Greenleaf, MBA, Assistant Regional Inspector General.
Principal OEI staff included:

BOSTON                                                     HEADQUARTERS

Kenneth R. Price, Project Leader                           Linda Frisch, Program Specialist

Christopher T. Gould, MS, Program Analyst

Megan V. Smith, MPH, Program Analyst





          To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
            Reports are also available on the World Wide Web at our home page address:

                                           http://oig.hhs.gov/oei
                                EXECUTIVE SUMMARY

  PURPOSE
             To assess the role of State agency certification and accreditation in the quality oversight of
             ambulatory surgical centers in the Medicare program.

  BACKGROUND
             In 2000, Medicare paid $1.6 billion for 4.3 million procedures performed in ambulatory
             surgical centers (ASCs). ASCs are generally free-standing facilities and may bill Medicare only
             for surgical procedures that the Centers for Medicare & Medicaid Services (CMS) has
             determined can be performed safely outside of the hospital. While ambulatory surgery has
             been shown to have good surgical outcomes, routine procedures can result in serious
             complications and death. Over 3,000 ASCs participate in the Medicare program.

             Quality oversight of ASCs revolves around Medicare’s minimum health and safety standards,
             called the Conditions of Coverage. CMS requires ASCs to become Medicare-certified or
             privately accredited to show that they meet the Conditions. Certification is carried out by State
             agencies and accreditation by CMS-approved accreditors. The focus of both certification by
             State agencies and accreditation is routine inspections, called surveys. While ASCs are free to
             choose which route they take, the overwhelming majority elect State agency certification.

             This report is the first of two that supplement the main report of this inquiry, A System in
             Neglect. Our companion report, Supplemental Report 2: Holding State Agencies and
             Accreditors Accountable, assesses how State agencies and accreditors are held accountable
             for their performance overseeing ASCs. Our inquiry relies on claims and survey data, survey
             observations, and reviews of relevant laws and documents.

  IMPORTANCE OF QUALITY OVERSIGHT

  Medicare ASCs are experiencing explosive growth
       From 1990 to 2000, the number of ASCs doubled and the annual volume of procedures they
       perform tripled—making ASCs one of the fastest growing providers in Medicare.

  Scope and complexity of procedures are on the rise
       From 1990 to 2000, CMS approved over 800 new procedures for ASCs. Major procedures
       now comprise over a quarter of approved procedures. In this time, the annual volume of major
       procedures performed by ASCs jumped from 12,000 to over 101,000.




Quality Oversight of ASCs: Certification and Accreditation   1                                   OEI-01-00-00451
  FINDINGS ON STATE AGENCY CERTIFICATION

  State agency certification allows many ASCs to fall through the cracks
         Nearly a third of ASCs certified by State agencies have gone 5 or more years without a survey;
         over 130 have gone 10 years. From 1990 to 2000, elapsed time between recertification
         surveys grew from 1.8 to 4.4 years. Nearly half of complaints against ASCs certified by State
         agencies remain unresolved—some for as long as 5 years. ASCs consistently rank near the
         bottom of CMS’ survey budget priorities.

  The Conditions of Coverage fall short
       The Conditions have not been updated since 1982. They are one-size-fits-all and fail to
       distinguish among ASCs performing surgery of varying risks and complexities.

  State agency surveys focus entirely on compliance and fail to include continuous
  quality improvement
         Surveys focus on gathering evidence to verify compliance with the Conditions. They do little
         toward improving the quality of ASCs beyond enforcing minimum requirements.

  FINDINGS ON ACCREDITATION

  Accreditation provides regular presence in ASCs
       Each of the accreditors has policies to survey ASCs every 3 years. ASCs expect on-site
       presence at regular intervals.

  Accreditors update their standards regularly and adjust them to match the levels
  of surgery performed by individual ASCs
        Each accreditor has a process in place to regularly update its standards and adjusts them to
        match the risk and complexity of surgery performed by individual ASCs.

  Accreditation surveys focus on helping ASCs continuously improve but pay less
  attention to verifying compliance
         Surveyors spend considerable effort on helping ASCs continuously improve their performance.
         However, the educational nature of surveys, large number of standards, and limited time on-site
         result in less attention to compliance.

  RECOMMENDATIONS

  CMS should determine a minimum cycle for surveying ASCs certified by State
  agencies
       Take into consideration the nature and risks of care ASCs deliver. Consider a strategic
       approach that addresses survey cycles for all types of providers certified by State agencies.
       Consider using analysis of claims data, complaint history, and accreditation status to help
       identify survey priorities.

Quality Oversight of ASCs: Certification and Accreditation   2                           OEI-01-00-00451
  CMS should update the Conditions of Coverage for ASCs
       Add sections that deal with patient rights and continuous quality improvement. Make the
       Conditions adjustable to match the levels of surgery performed by different ASCs.

  CMS should ensure that State agency certification and accreditation strike an
  appropriate balance between compliance and continuous quality improvement
       Monitor State agencies and accreditors to ensure that they protect the public from poor
       performing ASCs while encouraging the rest to go beyond minimal health and safety standards.
       Our companion report, Supplemental Report 2: Holding State Agencies and Accreditors
       Accountable, has recommendations for improving CMS’ oversight of State agencies and
       accreditors.




Quality Oversight of ASCs: Certification and Accreditation   3                        OEI-01-00-00451
                              TABLE                          OF              CONTENTS

                                                                                                                                        PAGE

  EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


  INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


  PROFILE OF STATE AGENCY CERTIFICATION AND ACCREDITATION . . . . . . . . . . 8


  IMPORTANCE OF QUALITY OVERSIGHT


             Explosive growth of ASCs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


             Increasing scope and complexity of services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


  STATE AGENCY CERTIFICATION

             State Agency Certification allows many ASCs to fall through the cracks . . . . . . . . . . . . . . . 11


             The Medicare Conditions of Coverage Fall Short . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


             Compliance Dominates State Agency Surveys . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


  ACCREDITATION

             Regular Presence at ASCs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


             Standards are Regularly Updated, Adjustable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


             Accreditation Surveys Focus on Continuous Improvement . . . . . . . . . . . . . . . . . . . . . . . . . 17


  RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


  APPENDICES


             A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

             B: Description of three ASC procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

             C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27





Quality Oversight of ASCs: Certification and Accreditation               4                                                   OEI-01-00-00451
                                            INTRODUCTION


  PURPOSE

             To assess the role of State agency certification and accreditation in the quality oversight of
             ambulatory surgical centers in the Medicare program.

  BACKGROUND

  Ambulatory Surgical Centers in the Medicare Program

             Medicare began covering services provided by ambulatory surgical centers (ASCs) in 1982.
             In 2000, Medicare paid $1.6 billion for 4.3 million procedures performed in ASCs. Currently,
             over 3,000 ASCs participate in the Medicare program. 1

             Although ASCs have operating rooms and recovery rooms, they are not hospitals. However,
             medical advances enable many of the same procedures that hospitals perform to be performed
             on an ambulatory basis in an ASC. In addition to ASCs, ambulatory surgery is also performed
             in physician offices and hospital outpatient departments. However, unlike hospital outpatient
             departments, ASCs are generally free-standing facilities that provide surgical services to
             patients not requiring hospitalization.2 An ASC may only bill Medicare for surgical procedures
             that the Centers for Medicare & Medicaid Services (CMS) has determined can be performed
             safely outside of the hospital.

             While ambulatory surgery has been shown to have good surgical outcomes, even routine
             procedures can result in serious complications and death. 3 For example, a patient undergoing a
             routine Medicare-covered gynecologic procedure died in an ASC from complications during
             surgery; a patient whose bladder was perforated during surgery in an ASC was transported
             while bleeding to the nearest emergency room; a patient undergoing one of the most common
             procedures in Medicare, cataract extraction, went into cardiac arrest and died on the operating
             table in an ASC. While these adverse events could happen in any setting, the risk of such
             complications and the fact that more elderly patients with poorer health conditions are
             becoming candidates for ambulatory surgery illustrate the necessity for strong quality oversight
             of ASCs.4 Yet, since the inception of the ASC program in 1982, CMS’ approach to oversight
             remains unchanged. Despite the rapid evolution of ambulatory surgery and the growth in
             ASCs, there has been little assessment of the adequacy of its quality oversight.

  Quality Oversight of Ambulatory Surgical Centers

             Quality oversight of ASCs in the Medicare program revolves around Medicare’s


Quality Oversight of ASCs: Certification and Accreditation   5                                   OEI-01-00-00451
             Conditions of Coverage.5 The Conditions are minimum health and safety requirements that
             ASCs must meet in order to be eligible for Medicare reimbursement. They cover topics
             ranging from the credentialing and privileging of physicians to the governing body and
             management of a facility. The Conditions are established in the regulations by CMS.

             CMS relies on State agency certification and private accreditation to ensure that ASCs meet
             the Conditions. Facilities must be certified by State survey and certification agencies or
             accredited to participate in Medicare. They are free to choose which route they take. State
             agency certification is available to ASCs free of charge, while they must pay a fee to become
             accredited. Over 90 percent of ASCs choose to be certified by State agencies. Yet the
             number of facilities choosing accreditation is growing.6 Some ASCs that are certified by State
             agencies are also accredited for reasons other than Medicare certification.

             The emphasis of both State agency certification and accreditation is routine inspections of
             ASCs, called surveys. Generally, surveys are conducted to add new ASCs to the Medicare
             program, reevaluate those already in the program, and respond to complaints or adverse
             events. State agency surveys follow CMS’ survey protocol, which is based on the Conditions.
             Accreditation surveys, however, follow accreditors’ own survey protocols and standards.
             Thus, only accreditors whose standards meet or exceed the Conditions have authority to
             approve ASCs for participation in the Medicare program. 7

             Medicare certification is carried out by State survey and certification agencies under agreement
             with CMS. CMS has approved three accreditors to survey ASCs for the Medicare program:
             the American Association for Accreditation of Ambulatory Surgical Facilities, the Accreditation
             Association for Ambulatory Health Care, and the Joint Commission on Accreditation of
             Healthcare Organizations.8 (See the Profile of State Agency Certification and Accreditation on
             page 8 for more information on State agency certification and the three approved accreditors.)

  This Inquiry and This Report

             This inquiry focuses on the oversight of ASCs and is part of a larger plan to assess the quality
             oversight of ambulatory surgery in the Medicare program. We chose to evaluate the oversight
             of ASCs first because they are one of the fastest growing settings for ambulatory surgery in
             Medicare.

             This report is the first of two that supplement the main report of this inquiry, A System in
             Neglect, which also includes the full text of the comments we received on the draft reports.
             Supplemental Report 2: Holding State Agencies and Accreditors Accountable, assesses how
             State agencies and accreditors are held accountable for their performance overseeing ASCs.

             Our inquiry draws on a variety of sources. We analyzed data from CMS’ Online Survey
             Certification and Reporting System and the Medicare Part B file, as well as survey data




Quality Oversight of ASCs: Certification and Accreditation   6                                 OEI-01-00-00451
             from the three accreditors. We observed surveys of ASCs conducted by the accreditors and
             State agencies. We reviewed policy manuals from the accreditors, CMS’ State Operations
             and Regional Operations manuals, laws, regulations, and articles from newspapers, journals,
             newsletters, and magazines. In addition, through interviews both in-person and over the phone,
             we gathered information from representatives of CMS central and regional offices, State
             agencies, professional associations, and the American Association for Accreditation of
             Ambulatory Surgical Facilities, the Accreditation Association for Ambulatory Health Care, and
             the Joint Commission on Accreditation of Healthcare Organizations. For a more detailed
             description of the data sources we used for this inquiry, please see Appendix A.

             We conducted this inspection in accordance with the Quality Standards for Inspections
             issued by the President’s Council on Integrity and Efficiency.




Quality Oversight of ASCs: Certification and Accreditation   7                              OEI-01-00-00451
                    PROFILE OF STATE AGENCY
                       CERTIFICATION AND
                        ACCREDITATION

  The table below profiles some key characteristics of Medicare certification by State survey and
  certification agencies and the three accreditors: Accreditation Association for Ambulatory Health Care
  (AAAHC), the Joint Commission on Accreditation of Healthcare Organizations (JCAHO), and the
  American Association for Accreditation of Ambulatory Surgery Facilities (AAAASF).

                                                                      Oversight Mechanism

   Characteristics             State Agencies                       AAAHC                      JCAHO                      AAAASF

   Number of Medicare
   ASCs as of Spring                    2,980                           249                        55                          2
   2001

   Cost to ASC                None.                          Ranges from $1,500         Ranges from $1,500         Ranges from $1,500
                                                             plus per year.             plus per year.             plus per year.




   Standards                  One size fits all, last        Adjustable to match        Adjustable to match        Adjustable to match
                              revised in 1982.               type of surgery            type of surgery            type of surgery
                                                             performed; ongoing         performed; ongoing         performed; ongoing
                                                             revision.                  revision.                  revision.

   Survey                     Unannounced. No                Unannounced.*              Unannounced.*         Unannounced.*
                              minimum survey cycle.          Every 3 years; 6           Every 3 years. Moving Every 3 years plus self-
                              Many ASCs go 5 years           months or 1 year for       toward every 18       evaluation every year.
                              without a survey.              certain ASCs.              months.

   Type of Surveyors          Team rarely includes a         Team always includes a Team always includes a Team always includes a
                              physician.                     physician.             physician.             physician.



   Surveyor Training          Offered ad hoc; 2 day          Attend 2 ½ day training Initial 2 week training   Attend 1 day training
                              training in 1999;              every 2 years.          and preceptorship,        every 3 years.
                              previous training in                                   annual training, distance
                              1987.                                                  learning.

   Public Information         Survey results available       Information limited to a   Accreditation history      Information limited to a
                              only through State             list of accredited ASCs    and most recent survey     list of accredited ASCs
                              agencies or CMS                by phone and on            report available by        by phone and on
                              regional office.               website.                   phone and on website.      website.

   Standardized               None.                          None.                      None.**                    None.
   Performance Data           Performance data not           Performance data not       Performance data not       Performance data not
                              linked to certification.       linked to accreditation.   linked to accreditation.   linked to accreditation.


  *	    The accreditors do request a surgical/business schedule for several months surrounding a survey date to ensure that the ASC
        will be open and caring for patients at time of survey.
  **    JCAHO is moving towards the use of outcome/performance data to assess compliance with specific standards.

Quality Oversight of ASCs: Certification and Accreditation               8                                               OEI-01-00-00451
                        IMPORTANCE OF QUALITY
                             OVERSIGHT

  Medicare ASCs are experiencing explosive growth

             The growth of ASCs outpaces almost all other settings in Medicare. Currently 3,266 ASCs
             take part in the Medicare program (with about 30 percent located in California, Florida, and
             Texas). From 1990 to 2000, the number of ASCs increased by close to 200 facilities a year
             while the number of hospitals decreased slightly. In fact, over the past 5 years, the ASC
             growth rate outpaces all other settings in Medicare except for comprehensive rehabilitation
             facilities and rural health clinics.

             As the number of ASCs has increased, so too has the number of surgical procedures that they
             perform. In 1990, 1.3 million procedures took place within Medicare ASCs. By 2000, the
             number of procedures increased over 220 percent to 4.3 million, accounting for over $1.6
             billion in reimbursement. This growth far outpaces that of Medicare’s two other main surgical
             settings, hospital outpatient departments, which increased by 78 percent, and inpatient
             hospitals, which increased by 38 percent. Experts project that procedures performed in ASCs
             will continue to grow steadily between 2000 and 2006.9

  Scope and complexity of procedures are on the rise

             The procedures taking place in ASCs have not only increased in volume, but have also
             increased in scope. In 1990, CMS’ list of procedures approved for ASCs included 1,500
             procedures. The current list, last approved in 1995, includes nearly 2,300 procedures.10 While
             it has always included many minor procedures such as draining of a major joint, biopsy of the
             prostate, and determining urinary bladder pressure, the number of major procedures on the list
             has grown substantially. CMS defines major procedures as those involving high levels of
             anesthesia and invasiveness. In fact, 632 major procedures are now approved for ASCs,
             representing over a quarter of the list. A proposed update to the list, introduced in 1998 but
             not yet implemented, includes over 2,500 procedures, and will increase the number of major
             procedures to 743.11 See Appendix B for descriptions of a major, minor, and an eye
             procedure commonly performed in Medicare ASCs.

             These changes in the list of approved procedures resulted in a dramatic increase in the volume
             of major procedures performed in ASCs. From 1990 to 2000, the annual volume of major
             procedures taking place in ASCs grew by 730 percent, from 12,000 to over 101,000
             procedures, while those in outpatient departments and hospitals grew by 392 and 57 percent
             respectively. Thus, Medicare beneficiaries are increasingly going to ASCs for complex
             procedures involving higher levels of invasiveness and anesthesia. Procedures such as
             laparascopic repair of inguinal hernia, shoulder arthroscopy, and arthroscopic



Quality Oversight of ASCs: Certification and Accreditation   9                                OEI-01-00-00451
             repair of the Anterior Cruciate Ligament, all of which require general anesthesia and were once
             performed only in inpatient hospitals, are now commonly performed in ASCs.




Quality Oversight of ASCs: Certification and Accreditation   10                              OEI-01-00-00451
             STATE AGENCY CERTIFICATION

  State agency certification allows many ASCs to fall through
  the cracks

             Over 90 percent of ASCs choose state agency certification as their route to participate in the
             Medicare program, making it Medicare’s primary tool of oversight for ASCs. Yet, despite
             significant growth in ASCs, the level of state agency surveys has changed little.

  Recertification surveys are not keeping
  up

             Nearly a third of ASCs certified by State

             agencies (872) have gone 5 or more years

             and over 130 have gone 10 or more years

             without a recertification survey (see figure

             1).12 From 1990 to 2000, the elapsed

             time between recertification surveys of

             ASCs already in the program more than

             doubled, from 1.8 years to 4.4 years. 

             Periodic surveys are important for ensuring

             that ASCs continue to meet minimum

             standards for health and safety. This         Source: OIG analysis of OSCAR data.

             concept is reinforced by the Joint

             Commission, where a movement is

             underway to increase the frequency of reaccreditation surveys from once every 3 years to once

                                                                  every 1.5 years.13

                                                                  ASCs certified by State agencies are going
                                                                  so long between surveys because the level
                                                                  of recertification surveys has failed to match
                                                                  ASC growth. Between 1990 and 2000, the
                                                                  number of ASCs certified by State agencies
                                                                  more than doubled from 1,197 to 2,966, but
                                                                  the level of State agency surveys has
                                                                  changed little—6hovering at an average of
                                                                  610 surveys per year.14 Of these, an
                                                                  increasing portion has been used to survey
                                                                  new ASCs entering the Medicare program
                                                                  rather than to recertify existing ASCs. For
              Source: OIG analysis of OSCAR data.                 example, in 1990, State


Quality Oversight of ASCs: Certification and Accreditation   11                                 OEI-01-00-00451
             agencies conducted 30 surveys to add new ASCs to the program and 483 surveys to recertify
             the 1,197 ASCs that were already in the program. 15 Yet, in 2000, State agencies performed
             287 surveys to add new ASCs and 310 surveys to recertify the 2,966 ASCs already in the
             program (see Figure 2 for the overall trend).

             Complaint surveys lack follow through

             Complaints serve as possible warning signs of deficiencies in patient care and safety. CMS
             considers surveys in response to complaints and serious incidents as priorities in its budget and
             instructions to State agencies.

             In the past 5 years, State
             agencies conducted 141                           One ASC That Slipped Through The Cracks
                                                 A State agency received a complaint against an ASC in 1999 from
             surveys in response to              a woman whose mother, a Medicare beneficiary, underwent a
             complaints. However, the            routine cataract extraction there. The beneficiary died during
             follow-through on                   surgery. In response to the complaint, the State agency surveyed
             deficiencies (resurveys and         the ASC and found it to be out of compliance with 5 of the 10
                                                 Medicare Conditions, including missing emergency equipment,
             plans of correction)                uncredentialed staff participating in surgery, and falsified medical
             identified during these             records. The surveyors suspected that the ASC’s lack of emergency
             surveys was limited.16 For          equipment was related to the death of the beneficiary. Although
             example, as of 2001, 47             the ASC submitted a plan of correction, CMS rejected it and
                                                 instead, in October of 1999, gave the facility 23 days to resolve
             percent of complaints in
                                                 deficiencies or be terminated from the Medicare program. Yet
             CMS’ data system are                neither the facility nor CMS has taken any action toward resolving
             unresolved.17 In some               these deficiencies. Despite its unresolved deficiencies related to
             cases, complaints remain            patient safety, the facility continues to perform surgeries and treat
                                                 Medicare patients.
             unresolved for as many as 5
             years. In fact, 17 percent
             of unresolved complaint surveys uncovered deficiencies serious enough to warrant terminating
             the ASC from Medicare.18 The large number of unresolved cases shows that after a complaint
             survey, facilities are frequently left unmonitored without a resurvey or without a requirement for
             them to resolve their deficiencies (see box above).

             Finally, we acknowledge that poor follow-through indicated by CMS’ data system could be the
             result of lags in data entry of updates to complaint cases. However, we reviewed the paper
             records for 18 cases and found that they agreed with the data system records.

  ASCs are a low priority in CMS’ survey and certification budget

             Over the last 5 years, ASCs have consistently ranked near the bottom of CMS’ survey
             priorities.19 ASCs compete for survey funding with over 25,000 other facilities in the Medicare
             program.20 In their last place priority category, called “other,” ASCs still compete with over
             10,000 facilities in the Medicare program, including hospices, rural health clinics, and
             psychiatric hospitals.21 By statute, CMS must survey nursing homes and home health agencies
             at regular intervals. Home health agencies must be surveyed every 3 years while nursing homes
             must be surveyed every 12-15 months.22 ASCs,


Quality Oversight of ASCs: Certification and Accreditation   12                                       OEI-01-00-00451
             however, lack such a mandated survey cycle. Thus, they drop even lower in survey priority.

  The Medicare Conditions of Coverage fall short

             The Conditions set the overall tone and approach of CMS’ oversight model for any given
             provider type in the Medicare program. They drive the structure and content of State agency
             surveys and set a baseline that the standards of CMS-approved accreditors must meet or
             exceed. Indeed, the effectiveness of Medicare’s entire system of quality oversight depends
             upon having Conditions that are adequate in light of the nature and risks of care delivered by a
             given provider type. CMS is in the process of updating the Conditions for several provider
             types, including hospitals.

  They are outdated

             CMS has not updated the Conditions for ASCs since the inception of the ASC program in
             1982.23 Thus Medicare’s approach to overseeing ASCs has failed to keep pace with
             important advances in quality oversight. We note that CMS did attempt to update the
             Conditions in 1996, but the effort never reached conclusion. Below we highlight two key areas
             where the Conditions have fallen behind.

                        The Conditions do not address patient rights. The Conditions fail to address
                        important patient protections such as complaint processes, safeguarding patient privacy,
                        and making available information on treatment options. Yet, in its Strategic Plan CMS
                        cites a renewed commitment ‘to beneficiaries as the ultimate focus of all CMS activities,
                        expenditures, and policies.’24 Indeed, CMS has added patient rights to the Conditions
                        for several other provider types, including hospitals and nursing homes, but it has not
                        yet done so for ASCs.25

                        The Conditions do not address continuous quality improvement. The Conditions
                        offer little commitment to continuous quality improvement. While CMS speaks to the
                        importance of continuous quality improvement in its interpretive guidelines to ASC
                        surveyors, the Conditions themselves do not require ASCs to conduct continuous
                        quality improvement efforts. Nor do they require the use of standardized performance
                        measures for assessing performance and directing quality improvement efforts.
                        However, CMS has begun to require nursing homes, home health agencies, and
                        hospitals to report standardized performance measures which can be used to direct
                        continuous improvement.26

  They cannot adjust to match the levels of surgery that different ASCs offer

             Nearly half of ASCs are single-specialty facilities, performing only one type of procedure, such
             as pain management injections, eye surgery, endoscopy, or orthopedic surgery. 27 Yet, the
             Conditions fail to distinguish among ASCs performing surgery of varying risk and complexity.
             Instead, they take a one-size-fits-all approach that appears geared toward



Quality Oversight of ASCs: Certification and Accreditation   13                                  OEI-01-00-00451
             large, multi-specialty ASCs that use general anesthesia. They cannot adjust to reflect the
             degree of invasiveness or type of anesthesia, among other factors, that vary among ASCs. This
             could overburden some ASCs while leaving others with a set of standards that may not
             effectively address key aspects of their operations.

  State agency surveys focus entirely on compliance and fail to
  include continuous quality improvement

             State agency surveys revolve
                                                                 A State Agency Survey We Observed
             around ensuring compliance with        The ASC was a large multi-specialty facility with 5
             the 10 requirements that comprise      operating rooms and over 25 staff. On the day of the
             the Conditions of Coverage.            survey, two nurses from the State agency arrived at the
             Surveyors use a standard protocol      facility unannounced. The survey began at 9AM with a 15
                                                    minute conference with the surveyors and the facility
             called the Interpretive Guidelines     administrator. At this time the lead surveyor provided the
             that CMS derives directly from the     facility administrator with a list of documents she would
             Conditions. These guidelines serve     need to review: bylaws, surgical log, and personnel lists.
             as a road map to focus the survey,     She used these documents to develop a list of medical
                                                    record and personnel files for review. The second surveyor
             suggesting probes for ascertaining     went on a 1.5 hour tour of the facility, and then a 1.5 hour
             compliance with each requirement.      tour of the operating rooms. At this time, a representative
             In our observations, surveyors did     of the State Insurance and Fire Safety Commission arrived
             not veer from these guidelines.        to do a 2-hour life safety inspection of the facility,
                                                    measuring doorways and checking smoke barriers.
             Further focusing their review, they    Meanwhile, the second surveyor reviewed medical records
             often collapsed the guidelines into    and other documents. Next, the surveyors reconvened and
             1 - 3 page checklists of evidence      together completed a review of medical records,
             necessary to complete the survey.      credentialing, and the facility’s quality assurance
                                                    program, consistently probing in areas where they found
             To verify that they had an accurate    problems by requiring additional documents and asking
             picture of compliance, surveyors       additional questions. Surveyors frequently asked ASC staff
             would cross-reference evidence         to explain how hypothetical situations would unfold at the
             from different sources. For            facility--such as emergency situations and
                                                    application/reapplications for privileges for a doctor
             example, they often cross-
                                                    joining the staff. The next morning, surveyors held an exit
             referenced evidence through the        conference to describe the deficiencies they found.
             surgical log to verify that surgeons
             practiced within their privileges,
             that peer review dealt with problem cases, and that the ASC followed its bylaws.

             The State agency survey is characterized by a challenging, direct approach in which surveyors
             aim to enforce minimums, rather than educate toward continuous quality improvement.28 This
             approach is ingrained in State agency surveys. It is delineated in CMS’ policy, which states that
             the role of the surveyor is, “to assess the quality of care and services and relate those findings to
             statutory and regulatory requirements.”29 The policy goes on to explain that the surveyor’s role
             is not to educate, advise, or consult with the facility on ways to improve the quality of care.
             This is reinforced by the Conditions in their failure to require ASCs to address continuous
             quality improvement. Thus State




Quality Oversight of ASCs: Certification and Accreditation   14                                         OEI-01-00-00451
             agency surveys focus on assessing compliance with the Conditions and do little toward
             improving the quality of ASCs beyond Medicare’s minimum requirements. For example, at exit
             conferences of State agency surveys, surveyors run down a list of what is out of compliance
             and refuse to discuss strategies a facility could use to improve its level of care. As one surveyor
             told us, “CMS specifically tells its surveyors not to act as educators or give advice. My role is
             to simply make sure everyone is safe.”




Quality Oversight of ASCs: Certification and Accreditation   15                                 OEI-01-00-00451
                                         ACCREDITATION

  Accreditation provides regular presence in ASCs, but covers
  a small proportion of facilities

             Each of the accreditors has policies to survey ASCs every 3 years. In fact, data from the two
             accreditors with more than 3 years of experience accrediting Medicare ASCs show that both
             survey facilities every 3 years.30 Routine on-site presence at ASCs provides oversight that is
             important to ensuring patient safety and reducing risk. Even though the surveys are
             unannounced, ASCs who voluntarily chose to be accredited expect such an on-site presence at
             regular intervals. This usually means that at a minimum, the facility must update policy manuals,
             recheck credentials and privileges, and perform staff training to retain accreditation.

             For some facilities, the survey cycle is shorter than every 3 years. For example, the
             Accreditation Association for Ambulatory Health Care accredits facilities where it finds patient
             safety concerns for shorter periods (6 and 12 months).31 This means these ASCs will be
             resurveyed sooner, so it can follow up on problem areas. Currently, the Joint Commission has
             a program in place to survey 5 percent of their facilities within a year of the ASCs’
             accreditation. In addition, to increase its on-site presence, the Joint Commission is moving
             toward surveying ASCs every 18 months.32 Finally, the American Association for
             Accreditation of Ambulatory Surgical Facilities requires its facilities to complete a self-
             evaluation in the years between the on-site surveys. On this form, facilities must evaluate their
             compliance with its standards.33

             Finally, while each of the accreditors reserves the right to survey ASCs in response to
             complaints, these surveys do not play a prominent role in their approach to oversight. As of
             February 2001, the accreditors have received a total of 10 complaints against ASCs and
             conducted surveys in response to 2 of them. 34



  Accreditors update their standards regularly and adjust them
  to match the levels of surgery performed by individual ASCs

             Each accreditor has a process in place to regularly update its standards. For example, in
             consultation with the ASC industry, the Accreditation Association for Ambulatory Health Care
             updates its standards on a yearly basis. Similarly, the Joint Commission revises its standards at
             a minimum of one year and the American Association for Accreditation of Ambulatory Surgical
             Facilities last revised its standards 2 years ago.

             This approach enables the accreditors to keep up with advances in ambulatory surgery and
             with important developments in quality oversight. For example, each of the



Quality Oversight of ASCs: Certification and Accreditation   16                                OEI-01-00-00451
             accreditors developed standards concerning malignant hyperthermia, a recently recognized
             complication triggered by commonly used general anesthetics. Furthermore, each of the
             accreditors also developed standards for several focal areas within health care, such as patient
             rights and quality improvement, while the Joint Commission also added a test standard for pain
             management.

             Furthermore, each of the accreditors builds adjustability into its standards to reflect the diverse
             surgical procedures offered within ASCs. The accreditors are able to scale these standards on
             the basis of the types of procedures performed in the ASCs, the complexity of services offered,
             and the levels of anesthesia used. For example, the American Association for Accreditation of
             Ambulatory Surgical Facility’s standards accommodate three levels of surgery based on the
             types of anesthesia used. Similarly, the Accreditation Association for Ambulatory Health Care
             applies a modular approach, using eight sets of core standards that apply to all facilities and
             several sets of adjunct standards that are used only for specific services offered by each facility,
             such as anesthesia services and surgical services. The Joint Commission also applies its
             standards so that their surveys are individualized according to the services provided at each
             ASC.



  Accreditation surveys focus on helping ASCs continuously
  improve but pay less attention to verifying compliance

             By its nature, accreditation
                                                                          An Accreditation Survey We Observed
             focuses on continuous quality                   The ASC was a two-operating room facility that specialized
             improvement through peer-to-                    in ophthalmology and pain management, but had recently
             peer interaction around the                     added podiatry and orthopedics to its services. The survey
                                                             team of two, one of whom was a physician, arrived
             standards of the accreditors.35
                                                             unannounced at 8:30 am and began with a tour of the
             Each of the accreditors describes               facility. During the tour, the surveyors asked the Head Nurse
             its process as a consultative one,              a series of questions about the ASC’s operating policies and
             sending at least one physician as               took notice of the layout and equipment within the facility.
                                                             After the tour, they reviewed the bylaws, staff and quality
             part of every survey team. These
                                                             assurance minutes, the surgical log, and other documents.
             survey teams spend considerable                 They also reviewed a sample of 25 medical records chosen by
             effort educating physicians and                 the ASC staff based on criteria provided by the survey team.
             staff on ways to continuously                   After the survey concluded for the day, the surveyors visited
                                                             the office of one of the physician-owners of the ASC, where
             improve their facility’s
                                                             they talked informally about the local health care market.
             performance. Indeed, a trusting                 Upon returning to the facility the following morning, the
             and instructional manner                        surveyors changed into surgical dress and did an in-depth
             characterized the interaction                   tour and inspection of the facility. During the tour, they
                                                             observed surgery, assessed sterile technique, security of
             within each of the accreditation
                                                             narcotics, and the presence of required emergency
             surveys we observed. As one                     equipment. Following the tour, the surveyors briefly
             surveyor said, “I'm not here to                 discussed the survey findings with each other and then, at
             find you doing things wrong.                    11:30 am, held an exit conference with the facility staff.
                                                             During the exit conference, a positive tone prevailed as
             We're here to find things you can
                                                             surveyors reviewed a handful of problems they found and
             do                                              praised staff for things the facility was doing well, which they
                                                             called ‘Wows.’


Quality Oversight of ASCs: Certification and Accreditation         17                                               OEI-01-00-00451
             better. Since you asked us here, we presume you're doing things well.” Insights passed along
             by surveyors ranged from those having to do with quality of care and patient safety to business
             and financial operations. In addition, surveyors often praised staff, particularly when they felt
             that a facility had done well within important areas.

             However, while working within this instructional manner, accreditation surveyors must also
             assess compliance with hundreds of standards for each ASC, often within surveys that last less
             than 2 days.36 This results in surveyors paying less attention to verifying compliance with
             accreditation standards. For example, we observed that accreditation surveyors rarely used
             the surgical log to verify that surgeons practiced within the scope of their privileges or that
             adverse events were flagged for quality review. Instead, they relied on conversations with staff
             or review of a limited sample of medical records. This tact may result in superficial review of
             serious problems. For example, during a survey of an endoscopy center that we observed,
             staff disclosed that they had used the crash cart two times in the last 6 months, one of which
             was for a ‘code blue’ situation. Yet, in response, the surveyor did not check the facility’s
             quality assurance minutes or peer review worksheets to see that it examined the cases
             appropriately. Instead, he simply stressed the importance of using a quality assurance process
             to analyze such cases for evidence of a pattern of problems.




Quality Oversight of ASCs: Certification and Accreditation   18                                 OEI-01-00-00451
                                 RECOMMENDATIONS


  CMS should determine an appropriate minimum cycle for
  surveying ASCs certified by State agencies

             Over the past 10 years, State agencies’ oversight has weakened dramatically while the number
             of ASCs certified by State agencies and the scope of services they provide has increased
             dramatically. Currently, only nursing homes and home health agencies have a minimum survey
             cycle to ensure that they receive routine on-site surveys. ASCs, along with all other Medicare
             provider types, lack such a cycle. In determining a minimum survey cycle for ASCs, CMS
             should consider the nature and risks of care ASCs deliver.37 CMS should consider a strategic
             approach that addresses survey cycles for ASCs within the overall context of adequately
             surveying all types of providers certified by State agencies. In addition, it should consider how
             its analysis of certain data could help it prioritize surveys across ASCs. For example, it could
             draw on volume of Medicare procedures, complaint history, and whether an ASC is accredited
             for reasons other than Medicare certification. CMS should also consider whether the financial
             demands presented by the rising number of Medicare-certified providers warrant establishing
             user fees, which would require legislative change. Such steps might enable CMS to better
             manage and plan for growth in the number of State agency surveys required to adequately
             oversee certified providers.

  CMS should update the Conditions of Coverage for ASCs

             CMS has not updated the Conditions of Coverage for ASCs since it began covering
             procedures performed in ASCs in 1982. Several times since, however, CMS has increased
             the number of ASC-approved procedures as medical advances have enabled ASCs to perform
             increasingly varied and complex types of surgery. Yet, the effectiveness of Medicare’s quality
             oversight system depends upon having Conditions that are adequate in light of the nature and
             risks of care ASCs deliver. The Conditions are of central importance because they set the
             overall tone and approach of CMS’ oversight model, thus driving the structure and content of
             State agency surveys. They also set a baseline which the standards of Medicare-deemed
             accreditors must meet or exceed. Indeed, CMS is in the process of updating the Conditions
             for several provider types, including hospitals.

  At a minimum, add sections that deal with patient rights and continuous quality
  improvement

             As ASCs continue to gain importance within the Medicare program, it is important that CMS
             ensures that they provide a core set of patient rights to Medicare beneficiaries. Adding a
             section to the Conditions that addresses issues such as how ASCs will respect



Quality Oversight of ASCs: Certification and Accreditation   19                                OEI-01-00-00451
             patients’ dignity and resolve patient complaints would be an important step in this direction.
             Indeed, such a step would reflect with CMS’ renewed focus on beneficiaries within its strategic
             plan and goals aimed at strengthening beneficiary satisfaction and protections.

             Similarly, addressing continuous quality improvement is also in line with several goals of CMS’
             strategic plan including those for enhancing quality of care and improving program
             administration. CMS should ensure that the Conditions require ASCs to conduct continuous
             quality improvement efforts. Over the longer term, we urge CMS to explore developing
             performance measures for ASCs. ASCs could use the measures to direct continuous quality
             improvement efforts while CMS could use them to monitor ASCs’ performance and to adjust
             the frequency and focus of surveys. We note that CMS already has a similar initiative
             underway using indicators reported by nursing homes and home health agencies. Both the
             Medicare Payment Advisory Commission and Congress have recently called on CMS to
             explore the expanded use of quality indicators.38

  Make the Conditions adjustable to match the levels of surgery performed by
  different ASCs

             In updating the Conditions, CMS should move away from its current one-size-fits-all model and
             instead consider an adjustable approach that would enable them to be tailored to individual
             ASCs.39 Such an approach might take into account anesthesia, invasiveness, and other factors
             that drive the riskiness of procedures done by a given ASC. This would improve the
             effectiveness and efficiency of State agency certification as well as minimize the regulatory
             burden by focusing the standards and the State agency survey on the level of services offered
             by each ASC. For example, an ASC that specializes in pain management would have a set of
             standards different from that of an ASC offering general surgery.

  CMS should ensure that State agency certification and
  accreditation strike an appropriate balance between
  compliance and continuous quality improvement

             While compliance typifies the regulatory approach taken by State agencies, continuous quality
             improvement is central to the collegial approach of accreditors. Both have important roles to
             play in quality oversight. In previous work, the OIG has highlighted work done by the National
             Roundtable on Health Care Quality and others that suggests that both approaches have value,
             but not so much that one should dominate at the expense of the other.40 Balance between the
             approaches would protect the public from poorly performing ASCs while encouraging the rest
             to improve beyond minimal health and safety standards. Yet, quality oversight of ASCs
             provided by State agencies and accreditors engages almost exclusively in one approach or the
             other.

             Adding continuous quality improvement to the Conditions would be a good first step toward
             bringing balance to quality oversight of ASCs. The challenge for CMS lies in



Quality Oversight of ASCs: Certification and Accreditation   20                               OEI-01-00-00451
             monitoring and working closely with State agencies and accreditors to ensure that their work
             reflects an appropriate balance. However, in our companion report, Supplemental Report 2:
             Holding State Agencies and Accreditors Accountable, we find that CMS does little to
             oversee State agencies’ and accreditors’ performance. In that report, we offer
             recommendations for ways that CMS can improve its oversight of State agencies and
             accreditors.




Quality Oversight of ASCs: Certification and Accreditation   21                             OEI-01-00-00451
                                                                                          APPENDIX A



                                                             Methodology


  Center for Medicare & Medicaid Services

             Data. We obtained dates of State agency surveys from CMS’ Online Survey Certification and

             Reporting System (OSCAR). CMS authorizes States to update and maintain this database

             with survey information. We used OSCAR to gather basic demographic information on ASCs

             certified by State agencies as well as explore the accuracy of data in OSCAR on those ASCs

             that are accredited. We extracted survey data pertaining to the frequency of State agency

             surveys between 1990 and 2000. In addition, we used OSCAR to identify ASCs that had a

             complaint survey between 1995 and 2000. We analyzed these data sets using the SAS

             software program. We are satisfied that our information is as accurate as CMS’ OSCAR

             system.


             Additionally, we obtained other descriptive information using OIG-generated random samples

             of 1 percent of Medicare’s Part B claims from 1990 and 2000. We used these samples to

             determine the total number of procedures taking place in ASCs, to sum reimbursement, to

             identify the top procedures, and to find what Medicare approved procedures are being

             performed in ASCs. Also, by applying the Berenson-Eggers Type of Service codes to the

             samples, we determined the number of major procedures taking place in ASCs. We

             conducted all of our analysis of Medicare claims data using SAS software. We are satisfied

             that our information is as accurate as the Part B 1 percent sample files.


             Documents. We reviewed a variety of documents from CMS, including:

             C    Budget call letters for each year from 1995 to 2001

             C    Regional Office and State Operations Manuals

             C    ASC Conditions of Coverage and Interpretive Guidelines

             C    Strategic plan

             C    Data compendium from 1995 to 1999

             C    Internal policy memos from the central and regional offices

             C    Correspondence with the accreditors.


             Finally, we reviewed 18 ASC complaint files from both State agencies and CMS regional

             offices from the years 1995 to 2000. We chose complaint files for review based on information

             obtained from OSCAR on date of complaint survey, number of complaints, and follow-up

             action taken. Additionally, we reviewed documents pertaining to CMS’ evaluation of the

             accreditors’ performance, as well as the findings of CMS oversight surveyors at site visits with

             the accreditors.





Quality Oversight of ASCs: Certification and Accreditation       22                           OEI-01-00-00451
                                                                                              APPENDIX A



             Interviews. We interviewed CMS employees involved with the ASC program at both central
             and regional offices.

  State Survey Agencies

             We interviewed State surveyors and State health agency officials involved in the certification of
             ASCs. We obtained a variety of documents from State agency certification surveys including
             checklists used by surveyors and final survey findings including deficiencies found and plans of
             correction.

  Accreditors

             We interviewed officials from all three accreditors. We also reviewed documents from the
             three organizations, including mission statements, accreditation manuals, policies, and ASC
             survey reports, communication from CMS, and complaint files. We requested and received
             aggregate data from these organizations reflecting their survey activity and findings over the last
             3 years. In addition, we attended surveyor training sessions for the American Association for
             Accreditation of Ambulatory Surgery Facilities and Accreditation Association for Ambulatory
             Health Care.

  Survey Observation

             We observed a total of nine ASC surveys in seven states during the course of this study. Four
             were State agency surveys and five were accreditation surveys.

  Other Sources

             Other sources of information that we used for this report include relevant laws and regulations.
             We also reviewed a variety of articles from newspapers, peer reviewed journals, medical text
             books, and medical web sites. Finally, we interviewed stakeholders, including consumer
             advocates, members of several professional associations, practicing physicians, and practicing
             lawyers.




Quality Oversight of ASCs: Certification and Accreditation   23                                  OEI-01-00-00451
                                                                                                          APPENDIX B


                                 Description of Three ASC Procedures


                                          Injection for Pain             Cataract Removal           Knee Arthroscopy
                                            Management                   with Lens Insertion        with Meniscectomy
                                            (CPT 62311)                     (CPT 66984)                (CPT 29881)
    Procedure Description              Diagnostic and/or              A cataract is broken-up      An arthroscope and other
                                       therapeutic medication is      and removed, either          instruments are inserted
                                       injected into the              manually or by the use of    through small incisions
                                       lumbar/sacral spinal area.     ultrasonic pulses. Once      made in the knee joint.
                                                                      the cataract is removed, a   The condition of the knee
                                                                      new lens is put in place.    joint is evaluated and any
                                                                                                   damaged tissue is
                                                                                                   removed and/or repaired.

    Anesthesia                         ! Local anesthesia.            ! Topical anesthetic eye     ! IV sedation with local
                                       ! IV sedation (rare).             drops with or without      anesthetic for knee.
                                                                        IV sedation.               ! General anesthesia
                                                                      ! Nerve block with or          with nerve block.
                                                                        without IV sedation.

    Average Surgery time                        <10 minutes                    19 minutes                   30 minutes

    Average Recovery time                       <30 minutes                   29.5 minutes                  90 minutes

    Number of procedures
    1990 (Ranking)                               9,800 (14)                   521,600 (1)                   5,700 (21)

    2000 (Ranking)                               159,500 (6)                  1,349,400 (1)                22,200 (21)




  Injection of diagnostic or therapeutic substance into the lumbar/sacral area

             The procedure begins with a consultation period to determine if the injection is warranted for
             the patient. This will vary between 10 and 30 minutes, depending upon how complex the
             patient’s history and examination are.41

             This procedure, which generally takes 10 minutes to complete, involves injecting medication
             into the epidural space, which is the vertical “tunnel” surrounding the spinal canal and extends
             from the base of the skull to the sacrum. Normally, the patient will not require IV sedation for
             this procedure, rather, local anesthetic is placed at the site of injection. By injecting the
             medication into the epidural space, it is able to wash over the nerve roots which have just left
             the spinal cord and are, for a short space, enclosed within the epidural space. The medication
             used most frequently is a steroid with or without local anesthetics or opioids (such as
             morphine). Occasionally, anti-spasmodic medication, such as Baclofen, is also injected into the
             epidural space. There are also occasions in


Quality Oversight of ASCs: Certification and Accreditation          24                                        OEI-01-00-00451
                                                                                              APPENDIX B


             which steroids are not used. In the case of obese patients and patients who have undergone
             surgery and, consequently, have scar tissue in the area of this procedure, the procedure may
             take substantially longer, though normally not longer than 45 minutes.

             There are some situations when medication is injected directly into the spinal canal. In this
             case, the medication is injected at or below the level of the first lumbar vertebrae. There is also
             a “caudal” approach in which medication is injected into the epidural space at the lowest end of
             the spine.

             Depending upon whether local anesthesia was placed at the site of injection, the recovery for
             this procedure usually takes 30 minutes. On rare occasions, when this procedure is done as a
             diagnostic event, it is necessary to keep the patient on-site for physician evaluation and pain
             relief over the course of several hours.

  Cataract removal with lens insertion

             Prior to the procedure, an ophthalmologist takes several measurements of the eye, such as an
             ultrasound and other non-invasive means, to evaluate the curvature of the eye. Also, the
             general health of the patient is evaluated prior to the surgery to determine the patient’s fitness
             for the procedure. Most patients with comorbidities are able to undergo this procedure.42

             Typically the eye will be anesthetized using topical anesthetic eye drops or a nerve block.
             Often, patients are also given IV sedation to help them relax throughout the procedure.

             With the help of a microscope, the edge of the cornea is incised in order to get to the cataract
             that has formed on the lens. Manual removal of the cataract calls for a small incision of the
             cornea, while use of ultrasound to break up the cataract requires an even smaller incision. The
             cataract is then either manually or ultrasonically crushed into small pieces, which are then either
             manually removed or vacuumed out of the eye.

             Once the pieces of the cataract are removed, the lens is inserted through the incision in the
             cornea. Oftentimes, no sutures are needed to close the incision. A patch is placed over the eye
             and is removed the next day at the postoperative examination. Antibiotic and anti-inflammatory
             eye drops are prescribed and the eye is completely healed in about 10 weeks.

  Knee arthroscopy with meniscectomy

             The patient can be placed under local, spinal, or general anesthesia, however, it is
             recommended that the patient be given general anesthesia. After the patient is anesthetized, a
             tourniquet is put into place about the thigh. A leg-holding device is also




Quality Oversight of ASCs: Certification and Accreditation   25                                  OEI-01-00-00451
                                                                                              APPENDIX B


             put in place to assist in stressing the knee to open up the different compartments that require
             exploration for diagnostic or operative procedures.43

             Prior to surgery, the leg, from ankle to tourniquet, is thoroughly scrubbed and prepared for
             surgery. The patient’s leg is then draped to isolate the knee. The patient can be placed in
             either one of two positions; laying down with either the surgically prepared leg angled off the
             side of the table, or with both legs dangling off the end of the table at 90 degrees.

             Next, the patient is ready for the incisions through which the arthroscope and other instruments
             will be inserted. First, the surgeon uses a skin-marking pen to mark several landmarks,
             including all standard and optional incisions, and the outlines of ligaments, tendons and joint
             lines. Next, before any incisions are made for insertion of the scope and other instruments, the
             knee joint must be distended in order ensure the view of the arthroscope is not obscured.
             Distention involves inserting a tube, called an inflow cannula, into the knee joint through a small
             incision. This tube is connected to a fluid bag situated four to five feet above the patient.
             Constant inflow of this fluid into the knee joint assures the surgeon has a proper view of the
             joint. Once the knee is fully distended, the surgeon should check the initial landscape markings
             of the knee to ensure the incisions will be made in the proper areas.

             The surgeon can now make the small incisions at the standard incision sites and, if need be, at
             the optional incision sites as well. Once the small incisions are made the surgeon inserts the
             arthroscope which enables the surgeon to see inside the knee joint. While manually
             manipulating the knee joint by moving the leg, the surgeon probes the entire knee joint in order
             to determine where the damage is and what course of action should be taken. In the case of a
             meniscectomy, there is a tear in the meniscus, which is the disc shaped cartilage in the knee
             joint, and the damaged portion of the meniscal cartilage must be removed. The surgeon then
             inserts either basket forceps, scissors, or an arthroscopic knife into another portal to remove
             the damaged meniscal cartilage. Once the damaged cartilage is removed, the remaining
             meniscal cartilage is probed to ensure there are no additional tears and that it is balanced and
             stable. Finally, the knee joint is thoroughly lavaged and suctioned in order to remove any small
             cartilage particles that may have dropped into the joint during the removal procedure, and the
             small incisions are sutured.




Quality Oversight of ASCs: Certification and Accreditation   26                                  OEI-01-00-00451
                                                                                        APPENDIX C


                                                             Endnotes


  1. CMS’ Online Survey Certification and Reporting System (OSCAR), March 5, 2001.

  2. 42 C.F.R., sec. 416.2.

  3. Mark A. Warner et al., “Major Morbidity and Mortality Within 1 Month of Ambulatory Surgery and
  Anesthesia,” Journal of the American Medical Association 270 (September 22, 1993) 12: 1437-
  1441.

  G. Mezei & F. Chung, “Return hospital visits and hospital readmissions after ambulatory surgery,”
  Annals of Surgery 230 (November 1999) 5: 721-727.

  Rebecca Twersky et al., “What happens after discharge? Return hospital visits after ambulatory
  surgery,” Anesthesia & Analgesia 84 (February 1997) 2: 319-324.

  4. Margaret Jean Hall et al., “Ambulatory Surgery in the United States, 1996,” Advance Data: National
  Center for Health Statistics, Centers for Disease Control 300 (August 12, 1998).

  Mark A. Warner et al., “Major Morbidity and Mortality Within 1 Month of Ambulatory Surgery and
  Anesthesia,” Journal of the American Medical Association 270 (September 22, 1993) 12: 1437-
  1441.

  5. Social Security Act, sec. 1832 (a) (2) (F)(i).

  6. Based on data provided to OIG by the three accreditors.

  7. Social Security Act, sec. 1865, 42 U.S.C. 1395bb.

  8. CMS announced in the Federal Register (50 Fed. Reg. 66, 14906, March 14, 2001) that the
  American Osteopathic Association (AOA) applied for recognition as a national accreditation program
  for ASCs for the Medicare program. As of the date this report was issued the AOA had not yet been
  approved accredit Medicare ASCs. The Joint Commission on the Accreditation of Health Care
  Organizations and the Accreditation Association for Ambulatory Health Care have been approved
  since December 19, 1996 ( 245 Fed. Reg. 61, 67042, Dec. 19, 1996). The American Association for
  Accreditation of Ambulatory Surgical Facilities has had approval since December 2, 1998 (231 Fed.
  Reg. 63, 66554, Dec. 2, 1998).

  9. SMG Marketing Group Inc “Freestanding Outpatient Surgery Centers (FOSCs).” Copyright 2000.

  10. CMS approves procedures to be performed in ASCs based on 42 C.F.R., sec. 416.65 These
  standards limit ASC procedures to those that do not generally result in extensive blood loss, that do not
  require major or prolonged invasion of body cavities, that do not directly involve major blood vessels,
  or that are not generally emergency or life-threatening in nature.

Quality Oversight of ASCs: Certification and Accreditation      27                          OEI-01-00-00451
                                                                                           APPENDIX C


  11. Section 1833(i)(1) of the Social Security Act requires that the ASC list be reviewed and updated at
  least biennially. The current list of procedures approved for ASCs was last reviewed and updated in
  1995. CMS has not updated this list in over 6 years and has missed its last three scheduled update
  deadlines.

  12. We count the number of ASCs that have not had a survey in 5 or more years in a given year using
  the midyear, July 1, as the point of reference for each year.

  13. JCAHO website information: Accreditation Process Improvement Initiative www.jcaho.org.

  14. Year 2000 data is from December 2000. According to OSCAR, as of May 2001, 3,234 ASCs
  participate in the Medicare program, of those, 2,966 are certified.

  15. Initial surveys and recertification surveys do not total to overall number of surveys for this year
  because State agencies performed two “other” types of surveys.

  16. Between 1995 and 2000 State agencies and CMS regional offices have received 159 complaints
  and performed unannounced surveys in response to all but 3 of them This is the total number of
  complaints that the CMS Regional Office and State Agency entered into OSCAR. It is not known how
  many actual complaints were received that were either not entered into OSCAR or not investigated.

  17. OIG analysis of OSCAR data. Complaint files are considered to be unresolved if they are listed in
  OSCAR as “pending.” We obtained a total of 18 complaint files to check against OSCAR. We found
  that the provider files marked pending in OSCAR have not had a follow-up survey or action against
  them since the complaint survey was performed.

  18. Medicare surveyors have three options when they investigate complaints and find deficiencies.
  They can place a facility on a 23-day or 90-day termination track, or ask the facility to submit a written
  plan of correction. The termination tracks require facilities to correct deficiencies within a specified time
  limit or risk termination from the Medicare program. Facilities placed on termination tracks are usually
  those where the most serious problems exist. If an ASC is out of compliance with the Conditions to
  such an extent that patients are in jeopardy, surveyors use a 23-day termination notice. For ASCs with
  condition-level deficiencies but no finding of patient jeopardy; surveyors use a 90-day termination
  notice. ASCs that are not placed on a termination track, but have non condition-level deficiencies can
  be given a plan of correction whereby the facility sends the State agency a written notice stating the
  date the deficiencies were corrected, how they were corrected, and in some cases, documentation that
  the deficiencies were corrected. Only facilities with condition-level deficiencies can be placed on a
  termination track. The path to termination is not direct. The survey process allows ASCs to correct
  condition-level deficiencies before the deadline for termination from the Medicare program.




Quality Oversight of ASCs: Certification and Accreditation   28                                OEI-01-00-00451
                                                                                                APPENDIX C




  19. Ranking of Survey Type on CMS Budget Call Letter FY 1997-2001

    FY Year                         Rank of Initial Surveys   Rank of Recertification Surveys

    2001                            11 out of 11              10 out of 11

    2000                            8 out of 8                7 out of 8

    1999                            11 out of 12              10 out of 12

    1998                            8 out of 9                7 out of 9

    1997                            8 out of 9                7 out of 9



  20. Other facility types in the Medicare program include: Nonaccredited hospitals, skilled nursing
  facilities, nonaccredited home health agencies, hospices, outpatient physical therapy centers,
  comprehensive outpatient rehabilitation centers, x-ray facilities, end-stage renal dialysis facilities, rural
  health clinics, organ procurement organizations, and community mental health centers.

  21. From CMS’ FY 2001 budget. Our analysis of 2000 Medicare Part B and OSCAR data revealed
  515 ASCs certified by State agencies that made no Medicare claims in 2000 (16% of all ASCs that
  take part in the Medicare program). Further analysis would be needed to determine whether these 515
  are newly certified by State agencies and therefore unlikely to have 2000 claims.

  22. 42 U.S.C. Sec. 1396r All skilled nursing facilities and nursing facilities are subject to a standard
  survey not later than 15 months after the previous standard survey, with a Statewide average interval
  between standard surveys of not more than 12 months. Home health agencies are subject to a standard
  survey not later than 36 months after the previous standard survey (42 U.S.C. Sec. 1395bbb). The
  frequency for surveys of HHAs within this 36 month interval shall be commensurate with the need to
  assure delivery of quality home health services.

  23. CMS has updated the conditions for several other providers such as hospitals, home health
  agencies, and ESRD, however, none have been officially approved. CMS does have plans to update
  the ASC conditions.

  24. CMS Strategic Plan, p. 10, September, 1988.

  25. See 64 Fed. Reg. 36,088, July 2, 1999 and 62 Fed Reg. 11,026, March 10, 1997 respectively.

  26. CMS has implemented the Minimum Data Set in nursing homes and the Outcome and Assessment
  Information Set in home health agencies. In addition, CMS calls for quality indicators within its
  proposed update of the Conditions of Participation for hospitals.

  27. SMG Report. Page 20.

Quality Oversight of ASCs: Certification and Accreditation    29                                  OEI-01-00-00451
                                                                                         APPENDIX C


  28. Office of Inspector General, The External Review of Hospital Quality: A Call for Greater
  Accountability (July 1999).

  29. CMS State Operations Manual section 4018.

  30. Data from 1997, the first year the Joint Commission on the Accreditation of Health Care
  Organizations and the Accreditation Association for Ambulatory Health Care surveyed facilities for the
  Medicare program shows that 26 ASCs applied to have a Medicare survey through the Joint
  Commission in the year 1997. In 2000, the Joint Commission resurveyed a third of those facilities.
  AAAHC had 149 ASCs in the Medicare program in 1997. Three years later, AAAHC resurveyed a
  third of those ASCs. The American Association for Accreditation of Ambulatory Surgical Facilities
  (AAAASF) has been approved for Medicare since December 2, 1998 (231 Fed. Reg. 63, 66554,
  Dec. 2, 1998). AAAASF surveyed its first Medicare ASC in 2000. Therefore, survey data is not
  available for 1998 and 1999.

  31. AAAHC has three survey options for their facilities. Facilities with minor or without any
  deficiencies will be resurveyed in 3 years. However, facilities with some deficiencies that AAAHC
  considers to be more serious or part of a pattern of partial compliance will be given shorter periods of
  accreditation, 6-months to 1 year, meaning these facilities must submit a plan to correct deficiencies and
  be resurveyed in order to gain 3 year accreditation. In fact, in 1998, 34 percent of ASCs surveyed by
  AAAHC received either a 6 month or 1 year accreditation decision and in 1999, 44 percent of ASCs
  received this decision. Through these shorter accreditation periods, which result in more frequent on-
  site presence, AAAHC helps to ensure that facilities with the most serious problems are not allowed to
  go 3 years in between surveys.

  32. Joint Commission web page “Accreditation Process Improvement Initiative” May 5, 2001.
  Currently, the Joint Commission conducts random unannounced surveys on 5 percent of accredited
  ASCs per year, 9-30 months after a facility’s last accreditation survey. On these surveys areas of
  specific concern about the provider based on prior surveys, complaints, and sentinel events are covered
  as well as elements that vary year to year. Some examples are: performance improvement,
  credentialing and privileging, and medication use.

  33. If ASCs report on the self-evaluation form that they do not meet AAAASF standards they are
  subject to the same 30-day corrective process as would occur after an on-site survey, including the
  possibility of on-site follow-up surveys.

  34. See our companion report, Holding the System Accountable, for further discussion of complaint
  mechanisms.

  35. For more on the nature of accreditation, see Office of Inspector General, The External Review of
  Hospital Quality: A Call for Greater Accountability (July 1999) and Michael S. Hamm, The
  Fundamentals of Accreditation (Washington, D.C.: American Society of Association Executives, 1997)
  3.


Quality Oversight of ASCs: Certification and Accreditation   30                              OEI-01-00-00451
                                                                                      APPENDIX C


  36. State agency certification has 10 conditions of coverage and about 50 standards for ASCs,
  whereas all three accreditors have over 200 standards for ASCs. In fact, AAAASF has over 300
  standards.

  37. CMS could also consider whether particular ASCs are, in fact, treating Medicare beneficiaries.
  Our analysis revealed 515 ASCs certified by State agencies that made no Medicare claims in 2000
  (16% of all ASCs that take part in the Medicare program). Further analysis would be needed to
  determine whether these 515 are newly certified by State agencies and therefore unlikely to have 2000
  claims.

  38. In its 2000 Report to the Congress, Medpac recommended that CMS expand its indicator-driven
  survey process for nursing homes and home health agencies to other providers in the Medicare
  program. In the Benefits Improvement and Protection Act of 2000, Congress directed the Secretary to
  work with Medpac and the Agency for Healthcare Research and Quality to examine and report on the
  development of standard instruments for patient assessment across settings.

  39. This may require legislative change.

  40. Department of Health and Human Services, Office of Inspector General, The External Review of
  Hospital Quality, OEI-01-97-00050; Office of Inspector General, The External Quality Review of
  Dialysis Facilities, OEI-01-99-00050; Mark R. Chasin et al, “The Urgent Need to Improve Health
  Care Quality: Institute of Medicine National Roundtable on Health Care Quality,” Journal of the
  American Medical Association 280 (September 16, 1998) 11: 1000-1005.

  41. Personal contact with Douglas Merrill, M.D. ASA Committee on Pain, Chair, 06/08/01.

  42. We obtained this information from several sources, including:
        C       personal observations of this procedure,
        C       Accreditation Association for Ambulatory Health Care, Inc. Institute for Quality
                Improvement, 1999 Performance Measurement Study, Cataract Extraction with
                Lens Insertion,
        C        http://www.adam.com/b2b/products/demos/ency/ENCY/ARTICLE/002957.htm,
                accessed 06/12/01 and,
        C       wysiwg://222/http://www.healthanswers.com/library/MedEnc/enc/832.asp, accessed
                06/12/01

  43. We obtained this information from several sources, including:
        C	      Accreditation Association for Ambulatory Health Care, Inc. Institute for Quality
                Improvement, 1999 Performance Measurement Study, Knee Arthroscopy with
                Meniscectomy,
        C       S. Terry Canale, M.D., Campbell’s Operative Orthopaedics: Ninth edition, Vol 2
                (St. Louis: Mosby, 1998), 1470 - 1501.
        C       http://www.webmd.lycos.com/content/asset/adam_surgery_synovectomy, accessed
                07/11/01.

Quality Oversight of ASCs: Certification and Accreditation   31                          OEI-01-00-00451
                                                                  APPENDIX C




Quality Oversight of ASCs: Certification and Accreditation   32     OEI-01-00-00451
